<html>
<title> - THE PROS AND CONS OF MAKING THE CENSUS BUREAU'S AMERICAN COMMUNITY SURVEY VOLUNTARY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  THE PROS AND CONS OF MAKING THE CENSUS BUREAU'S AMERICAN COMMUNITY 
                            SURVEY VOLUNTARY

=======================================================================



                                HEARING

                               before the

                SUBCOMMITTEE ON HEALTH CARE, DISTRICT OF

               COLUMBIA, CENSUS AND THE NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2012

                               __________

                           Serial No. 112-126

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
72-941                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Health Care, District of Columbia, Census and the 
                           National Archives

                  TREY GOWDY, South Carolina, Chairman
PAUL A. GOSAR, Arizona, Vice         DANNY K. DAVIS, Illinois, Ranking 
    Chairman                             Minority Member
DAN BURTON, Indiana                  ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                    Columbia
PATRICK T. McHENRY, North Carolina   WM. LACY CLAY, Missouri
SCOTT DesJARLAIS, Tennessee          CHRISTOPHER S. MURPHY, Connecticut
JOE WALSH, Illinois
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 6, 2012....................................     1
Statement of:
    Groves, Robert, Director, U.S. Census Bureau; Andrew Biggs, 
      resident scholar, American Enterprise Institute; Lawrence 
      Yun, chief economist, National Association of Realtors; and 
      Patrick Jankowski, vice president, research, Greater 
      Houston Partnership........................................    50
        Biggs, Andrew............................................    70
        Groves, Robert...........................................    50
        Jankowski, Patrick.......................................   115
        Yun, Lawrence............................................    74
    Poe, Hon. Ted, a Representative in Congress from the State of 
      Texas......................................................     2
Letters, statements, etc., submitted for the record by:
    Biggs, Andrew, resident scholar, American Enterprise 
      Institute, prepared statement of...........................    72
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois:
        Prepared statement of....................................    48
        Various letters..........................................    26
    Groves, Robert, Director, U.S. Census Bureau, prepared 
      statement of...............................................    52
    Jankowski, Patrick, vice president, research, Greater Houston 
      Partnership, prepared statement of.........................   117
    Poe, Hon. Ted, a Representative in Congress from the State of 
      Texas:
        American Community Survey................................     3
        Prepared statement of....................................    21
    Yun, Lawrence, chief economist, National Association of 
      Realtors, prepared statement of............................    76




  THE PROS AND CONS OF MAKING THE CENSUS BUREAU'S AMERICAN COMMUNITY 
                            SURVEY VOLUNTARY

                              ----------                              


                         TUESDAY, MARCH 6, 2012

                  House of Representatives,
Subcommittee on Health Care, District of Columbia, 
                  Census and the National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:46 a.m. in 
room 2154, Rayburn House Office Building, Hon. Trey Gowdy 
(chairman of the subcommittee) presiding.
    Present: Representatives Gowdy, McHenry, Clay, and Davis.
    Also present: Representative Issa.
    Staff present: Ali Ahmad, communications advisor; Kurt 
Bardella, senior policy advisor; Molly Boyl, parliamentarian; 
John Cuaderes, deputy staff director; Gwen D'Luzanksy, 
assistant clerk; Adam P. Fromm, director of Member services and 
committee operations; Linda Good, chief clerk; Mark D. Marin, 
director of oversight; Jeffrey Post, professional staff member; 
Jonathan J. Skladany, counsel; Rebecca Watkins, press 
secretary; Peter Warren, legislative policy director; Jaron 
Bourke, minority director of administration; Yvette Cravins, 
minority counsel; Devon Hill, minority staff assistant; Suzanne 
Owen, minority health policy advisor; and Mark Stephenson, 
minority director of legislation.
    Mr. Gowdy. This is a hearing on The Pros and Cons of Making 
the Census Bureau's American Community Survey Voluntary.
    The committee will come to order.
    In light of our first panel, the distinguished 
Representative Poe, Mr. Davis and I will wait and do our 
opening statements before the second panel.
    With that, Members may have 7 days to submit opening 
statements and extraneous material for the record.
    We will now welcome our first panel, the Honorable Ted Poe 
represents the Second District of Texas. He has a long and 
distinguished resume but his modesty, I am sure, dictates that 
I dispense with reading that and just recognize him for his 
opening statement. Welcome, Your Honor.

 STATEMENT OF HON. TED POE, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Poe. Thank you, Chairman Gowdy and Ranking Member Davis 
for the opportunity to speak before this subcommittee regarding 
the American Community Survey.
    I understand today's hearing is to evaluate pros and cons 
of making the American Community Survey voluntary. I am here to 
provide a voice for the many Americans who have called my 
office angry that they are forced to provide private 
information in response to the many invasive questions that the 
American Community Survey requires.
    Many of the callers have been from my congressional 
district in Texas but even a greater number are individuals 
throughout the United States who are upset because they are 
forced to provide this personal information outside of what 
they believe is required under the Constitution to be given to 
the Census Bureau.
    The information that the American Community Survey asks 
spans from, do you have a flush toilet in your home, how many 
toilets do you have in your home, does someone in your 
household because of a physical, mental, emotional condition 
have serious difficulty concentrating, remembering or making 
decisions.
    There are 48 questions asked in this survey, Mr. Chairman. 
I ask unanimous consent to submit for the record the American 
Community Survey form that is sent to Americans.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 73941.001
    
    [GRAPHIC] [TIFF OMITTED] 73941.002
    
    [GRAPHIC] [TIFF OMITTED] 73941.003
    
    [GRAPHIC] [TIFF OMITTED] 73941.004
    
    [GRAPHIC] [TIFF OMITTED] 73941.005
    
    [GRAPHIC] [TIFF OMITTED] 73941.006
    
    [GRAPHIC] [TIFF OMITTED] 73941.007
    
    [GRAPHIC] [TIFF OMITTED] 73941.008
    
    [GRAPHIC] [TIFF OMITTED] 73941.009
    
    [GRAPHIC] [TIFF OMITTED] 73941.010
    
    [GRAPHIC] [TIFF OMITTED] 73941.011
    
    [GRAPHIC] [TIFF OMITTED] 73941.012
    
    [GRAPHIC] [TIFF OMITTED] 73941.013
    
    [GRAPHIC] [TIFF OMITTED] 73941.014
    
    [GRAPHIC] [TIFF OMITTED] 73941.015
    
    [GRAPHIC] [TIFF OMITTED] 73941.016
    
    Mr. Poe. There are, no doubt, many benefits to the 
information obtained through the American Community Survey. For 
example, it helps allocate funding for Federal programs to 
States and local entities.
    I am here to suggest that the Federal Government however, 
does not have an overriding, compelling interest to force 
people to divulge their private matters in this survey. The 
survey should be voluntary. Congress should prohibit the 
Federal Government from forcing Americans to provide this 
information such as what time they leave for work in the 
morning and what time they come home.
    People are subject to repeated harassment by contracted 
agents who threaten them with fines for not complying with the 
survey. It is also concerning how the Census Bureau obtains 
this personal information. Let me give you a specific case in 
point.
    One of my constituents, Linda Roberts in Kingwood, Texas, a 
single mother with a young child, received the American 
Community Survey last July. She filled out the information 
required by the Census Bureau and mailed it back to the Census 
Bureau. Later, she began to receive weekly calls from the 
Bureau asking her to complete the entire survey. She refused 
because she had already complied with what she believed to be 
the requirements under the Constitution to give to the Census 
Bureau.
    When she refused, the calls increased from every week to 
multiple times every day. Then a Census employee started 
showing up at her house, ringing the door bell and peeking 
through the windows to see if she was there, all for the 
purpose of getting her to comply with this survey. On many 
occasions she came home from work in the evening to find 
someone sitting in their car in front of her house so they 
could knock on the door as soon as she entered her home.
    Mrs. Roberts explained that she not only felt uncomfortable 
providing the detailed information to the Federal Government, 
but she also felt afraid every time she came to and from her 
own home.
    Mr. Chairman, where in the Constitution does the Federal 
Government have the authority to harass citizens such as this? 
The Supreme Court uses a least restrictive means test to assess 
the validity of laws that could potentially infringe upon 
constitutional rights of liberty. The least restrictive means 
test says that if the law restricts individual liberty, it must 
employ the least restrictive means possible to achieve the 
overall goal.
    It is clear through Mrs. Roberts' story, and through the 
hundreds of other calls that I have received, that the Census 
Bureau was not using the least restrictive means to obtain the 
information asked in the survey. It seems they are using the 
most restrictive means and most intrusive means.
    Americans should have a choice to decide with they want to 
submit to invasive personal information to the Federal 
Government. If they choose not to do so, they should be left 
alone. The Census Bureau can get the information and get 
accurate information by other means. Since this is not an 
actual counting of the people, it can do a survey like other 
organizations, like posters, like marketing firms and private 
entities. They get accurate information without harassing 
people and forcing them to give that information.
    Frankly, many Americans believe some of the information in 
the American Community Survey is none of the government's 
business and it intrudes on their privacy. I happen to be one 
of them. There is no compelling State interest that should 
allow this intrusion into private lives.
    I have introduced H.R. 931, which seeks to make the 
American Community Survey voluntary by removing the criminal 
penalty imposed on the people who choose not to comply. The 
American people should get to choose whether they want to 
submit their personal information to the Federal Government. 
They should not be forced and mandated to do so through the 
American Community Survey. It should be voluntary.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Ted Poe follows:]
    [GRAPHIC] [TIFF OMITTED] 73941.017
    
    [GRAPHIC] [TIFF OMITTED] 73941.018
    
    Mr. Gowdy. Thank you, Judge Poe.
    Ranking Member Davis and I realize that you have an 
extraordinarily hectic schedule with other commitments to other 
committees. With that, on behalf of both of us, thank you for 
your willingness to testify and your leadership on this issue.
    We will be in recess for a few minutes so the next panel 
can come up. And if His Honor would be willing for us to go 
down and shake his hand.
    [Recess.]
    Mr. Gowdy. The hearing will come to order.
    We will now welcome our second panel.
    Since we did not do our opening statements in the order we 
traditionally do them, I will recognize myself now for an 
opening statement and then the distinguished gentleman from 
Illinois.
    Today the committee is gathered for an oversight hearing on 
issues related to the decennial census. Specifically, we will 
look at the Census Bureau's American Community Survey [ACS]. 
Although ACS is relatively new, it is actually more of a 
continuation of the old decennial census long form. However, 
the ACS differs from the old long form in that it collects data 
every year. In theory, this provides more accurate and timely 
data than information gathered only every 10 years.
    The ACS is mailed to 300,000 households each month and 3.6 
millions households per year. The goal of the survey is to 
collect data used by the various levels of government, 
demographers and even the private sector. While many regard the 
data as useful and helpful, the ACS is not without controversy.
    The objection many of us hear from constituents relates to 
the intrusive nature of the questions. A sample of questions 
include inquiries on healthcare plans, the number of times the 
recipient has been married and whether or not the recipient has 
a mortgage and if they do, how much they pay each month on the 
mortgage. Not content with merely asking the questions, the 
Federal Government aggressively pursues recipients with phone 
calls, visits and threats of fines and jail time for 
noncompliance.
    Today, the subcommittee will hear from the Census Bureau 
and data users about the American Community Survey, its role in 
government policy and how the specific questions in the survey 
relate to the Bureau and its perceived mission.
    One of the questions we are sure to hear asked today is how 
the results of the survey would be affected if the penalties 
for noncompliance were repealed. So too we may well hear how 
the census, needed for the apportioning of congressional seats, 
has morphed into something that inquires about marriage, 
mortgages and the like.
    I am extremely interested in hearing the perspective of our 
witnesses, including the one who just testified, the former 
judge from Texas. He is the sponsor of a bill which would take 
away the penalties associated with not responding to the ACS, 
as he just testified.
    I will now yield the remainder of my time to the 
distinguished chairman of the full committee, the gentleman 
from California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I want to thank you for calling this important hearing.
    There is nothing more important to our duties as Members of 
Congress than, in fact, to read and understand the Constitution 
and uphold it. At the end of the day, if we do nothing but 
recognize that that is our primary responsibility, if we pass 
no new laws and perhaps repeal a few, we probably will have 
done more of what the American people ultimately depend on us 
for than anything else.
    States have an absolute ability to take surveys, to pass 
laws, to regulate. Only the Federal Government has the mandate 
for the census. I have read the mandate for the census. It 
boils down to what is the meaning of enumeration. It is to 
count. Everything beyond that is outside the constitutional 
mandate.
    As we review the existing laws that under our jurisdiction, 
we have to answer just a few questions here today. Is it 
constitutional to demand it? The answer is it is not within the 
Constitution to demand this information. Is it nice to have? 
Yes. Is it important to have? Perhaps. Is it extremely useful? 
In many cases, also yes. Is this the least expensive way to 
accumulate this information accurately? Perhaps, but the 
Constitution doesn't say the government has a constitutional 
obligation to spend less. If it did, we wouldn't have the 
deficit we have before us today.
    As I look at a world in which every day we have the threat 
of litigation, criminal prosecution and, in fact, laws 
threatened to be passed because Facebook, Google, and thousands 
of other companies in and out of social media are accumulating 
individual information, aggregating it and selling it, selling 
it to people because it is useful, you have to ask the 
question: what is the special role for the United States that 
allows us to mandate that which we probably will litigate and 
legislate against when the private sector does it?
    All these questions and more, I believe, are part of the 
balancing act. Our hope here today is to glean more information 
for the only committee that has direct jurisdiction over the 
mandate portion under the census. The moment this is not 
mandated, I am quite sure plenty other committees of 
jurisdiction will talk about the usefulness of this 
information.
    I join with the chairman in my concern that if we don't get 
this right, we simply haven't done the first and most important 
part of what we are sworn to do: uphold and defend the 
Constitution.
    I thank the chairman and yield back.
    Mr. Gowdy. I thank the gentleman from California.
    The Chair would now recognize the gentleman from Illinois, 
the ranking member of the subcommittee, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I also want to thank our witnesses for appearing. I 
appreciate the comments of the chairman of the overall 
committee.
    I can't help but be reminded when I think of the census and 
census taking, that as a young community organizer, I met the 
most professional person I had ever seen or known who opened up 
the census data and information to me and colleagues of mine, 
people where I worked, in such a way until we became fascinated 
with information that existed. Her name was Mary Grady. She 
retired a few years ago and is no longer here, but she was the 
most professional bureaucrat, I guess, that I had ever seen. I 
will always fondly remember her.
    So, Mr. Chairman, I appreciate this hearing and I thank you 
for calling it because the American Community Survey is, in 
fact, beneficial to our Nation in many ways. Funding for 
education, transportation and human services are determined 
largely based upon data gathered by the ACS. ACS statistics 
provide a means of testing the effectiveness of our civil 
rights and anti-discrimination laws. The ACS is a tool that 
guides the proper targeting of hundreds of billions of dollars 
by the Federal Government.
    Local and State governments also rely on data collected by 
the ACS and use the data to target local funds. ACS data is 
also critical to large and small businesses, non-profits and 
academic researchers.
    The integrity of the ACS would be fundamentally challenged, 
however, by Congressman Poe's bill which would remove the 
traditional legal requirement to answer the census questions 
fully and truthfully. The Census Bureau reports that a 
voluntary ACS would cost too much more, much more to administer 
and the data would be less reliable.
    As stewards of public dollars, we should seek the most cost 
effective manner to reach our ultimate goal. I appreciate the 
fact that some citizens have concerns about their privacy. 
Congress has made it a felony offense to make a wrongful 
disclosure of personal information gathered by the census. Some 
complain about the time it takes to complete the survey. The 
Census Bureau requests a mere 45 minutes to complete the ACS. 
It is a civic duty and a mark of good citizenship and I also 
think a level of patriotism and patriotic spirit for 
individuals to be engaged in providing this information as we 
seek to make our country as responsive and as effective as it 
can possibly be.
    In this era of Twitter, Wikipedia, Facebook and online data 
where people share the most intimate details of their lives for 
the world to view, as a matter of fact, they just kind of do it 
automatically, as a matter of fact, they even do it on 
television shows, I am not convinced that there is an 
overwhelming number of citizens in our country who are 
seriously regarding this as an invasion of their privacy, 
although some do.
    I have today several letters from interest groups 
encouraging Congress to preserve the ACS as we know it and I 
would like to submit these, Mr. Chairman, with your indulgence, 
for the record.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 73941.019
    
    [GRAPHIC] [TIFF OMITTED] 73941.020
    
    [GRAPHIC] [TIFF OMITTED] 73941.021
    
    [GRAPHIC] [TIFF OMITTED] 73941.022
    
    [GRAPHIC] [TIFF OMITTED] 73941.023
    
    [GRAPHIC] [TIFF OMITTED] 73941.024
    
    [GRAPHIC] [TIFF OMITTED] 73941.025
    
    [GRAPHIC] [TIFF OMITTED] 73941.026
    
    [GRAPHIC] [TIFF OMITTED] 73941.027
    
    [GRAPHIC] [TIFF OMITTED] 73941.028
    
    [GRAPHIC] [TIFF OMITTED] 73941.029
    
    [GRAPHIC] [TIFF OMITTED] 73941.030
    
    [GRAPHIC] [TIFF OMITTED] 73941.031
    
    [GRAPHIC] [TIFF OMITTED] 73941.032
    
    [GRAPHIC] [TIFF OMITTED] 73941.033
    
    [GRAPHIC] [TIFF OMITTED] 73941.034
    
    [GRAPHIC] [TIFF OMITTED] 73941.035
    
    [GRAPHIC] [TIFF OMITTED] 73941.036
    
    [GRAPHIC] [TIFF OMITTED] 73941.037
    
    [GRAPHIC] [TIFF OMITTED] 73941.038
    
    [GRAPHIC] [TIFF OMITTED] 73941.039
    
    Mr. Davis. Thank you.
    I would also look forward to hearing from our witnesses.
    Mr. Chairman, I know we are looking at, thinking about and 
talking about some limitations relative to the participation of 
people, but it is kind of difficult for me to believe that the 
accuracy of information that we would have would be the same 
using survey techniques, approaches and other methods.
    I think part of what I am relating to is the fact that I 
have used the Census Bureau and the census data for so long 
that I have become so intimate with some of the people who have 
worked for the Bureau. As a matter of fact, I think the longest 
serving individual happens to run the operation out of Region 
V, Stanley Moore. Stanley has become almost an institution 
himself in the lives of many of the professional groups, 
colleges and universities, not-for-profits and we may have a 
little different view of the importance of the Census Bureau 
than some other people who have not had as much intimate 
contact as we have been favored with.
    I would hope that not only would we do this hearing today, 
but that we would have additional hearings so that we can 
further explore the impact of what is before us.
    I thank you, Mr. Chairman, and yield back the balance of my 
time.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 73941.040
    
    [GRAPHIC] [TIFF OMITTED] 73941.041
    
    Mr. Gowdy. I thank the gentleman from Illinois.
    We will now welcome our second panel of witnesses: the 
Honorable Robert Groves, Director, U.S. Census Bureau; Andrew 
Biggs, resident scholar, American Enterprise Institute; 
Lawrence Yun, chief economist, National Association of 
Realtors; and Patrick Jankowski, vice president, research, 
Greater Houston Partnership.
    Pursuant to committee rules, all witnesses, other than 
Members of Congress, must be sworn before they testify. Please 
rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Gowdy. May the record reflect that all witnesses 
answered in the affirmative. You may be seated.
    I will recognize you from my left to right, your right to 
left and the lights will mean what they traditionally mean in 
life, red being go ahead and finish that thought you have. 
Don't forget to turn on your microphone before you speak.
    With that, it is my pleasure to recognize Dr. Groves for 
his 5 minute opening statement.

  STATEMENTS OF ROBERT GROVES, DIRECTOR, U.S. CENSUS BUREAU; 
ANDREW BIGGS, RESIDENT SCHOLAR, AMERICAN ENTERPRISE INSTITUTE; 
    LAWRENCE YUN, CHIEF ECONOMIST, NATIONAL ASSOCIATION OF 
  REALTORS; AND PATRICK JANKOWSKI, VICE PRESIDENT, RESEARCH, 
                  GREATER HOUSTON PARTNERSHIP

                   STATEMENT OF ROBERT GROVES

    Mr. Groves. Thank you, Chairman Gowdy and Ranking Member 
Davis. I am delighted to be here to talk about the American 
Community Survey and its roll to the country.
    I must note that because of changes we have seen in our 
society at the Census Bureau we are in the middle of 
reorganizing how we do things to reflect changes in the society 
that have been mentioned already. We have launched a 
reorganization of the Bureau, we have crafted a Cost Efficiency 
Program that is based on staff proposals for saving money, we 
are taking every opportunity to save pennies in order to invest 
in innovation and I detail those in my full testimony that I 
submit to the committee for the record.
    One of the things we are doing that is different is using 
the American Community Survey as a tool to make the 2020 census 
more efficient. It is a key vehicle in the planning of the 2020 
census and through that we believe that we will produce both a 
more cost efficient decennial census and a better ACS over 
time.
    What is the ACS? It is literally this country's only source 
of small area statistics throughout the country available for 
all the communities in the Nation. As the successor to the 
decennial census long form, it is the only sample household 
survey that is mandatory by law. It thereby achieves the 
highest rates of participation of all surveys, approaching 98 
percent of the population.
    The vast majority of households that are sampled into the 
survey choose to participate and we have tried to limit the 
burden of the survey by limiting the sample size to about 2.5 
percent of the households each year. We are conscious of that 
challenge to us.
    The products produced by the American Community Survey 
amount annually to 11 billion statistics that inform local 
communities and businesses down to very small areas of space. 
That amounts to about 2 cents a statistic in terms of the 
efficiency of the survey. We will talk a lot today about uses 
of the survey. I would be happy to do that in a Q and A.
    I want to focus on the key issues that I believe are of 
concern to the subcommittee. Why do we ask these questions, for 
example? Why do we ask the question, does this person have 
difficulty concentrating, remembering or making decisions and 
does this person have difficulty dressing or bathing?
    Knowing the spatial distribution of the disabled population 
in the United States is crucial, both for Federal programs that 
serve them, for the Veterans Administration that has to serve 
disabled veterans, for the industry that serves the elderly and 
is designing living quarters for them throughout the country, 
and it is for that reason that we use the standards from the 
Institute of Medicine to form those questions.
    Why is the survey mandatory? The U.S. Constitution empowers 
Congress to carry out the census ``in such manner as they shall 
by law direct.'' That is unambiguous in the Constitution. When 
the founding fathers, many of whom were Members of the first 
Congress, passed the Census Act in March 1790, it became 
obvious that their intent was to make that mandatory. There was 
a $40 fine in 1790 for not complying to the census.
    The long form of the census has evolved to the American 
Community Survey. As the long form was mandatory, so too has 
the American Community Survey that replaced it been voluntary. 
What would happen if we changed this to a voluntary survey? In 
2003, Congress directed the Census Bureau to do an experiment, 
a piece of research to answer that question.
    We found that a voluntary test yielded respondent 
participation at lower levels in all three modes of data 
collection. That led to an increase in survey costs because we 
follow up those who did not respond on the mail side. That 
produces smaller numbers of cases for just those neighborhoods 
I described which means the estimates from the sample survey 
are more unstable. If we turned ACS into a voluntary survey, we 
estimate roughly that it would increase the costs by about $66 
million a year.
    For all these reasons, we are in the middle of a top to 
bottom program review of the ACS that will be finished in 
December 2012 and I would be happy to talk more on all these 
topics.
    I appreciate being here and look forward to questions.
    [The prepared statement of Mr. Groves follows:]
    [GRAPHIC] [TIFF OMITTED] 73941.042
    
    [GRAPHIC] [TIFF OMITTED] 73941.043
    
    [GRAPHIC] [TIFF OMITTED] 73941.044
    
    [GRAPHIC] [TIFF OMITTED] 73941.045
    
    [GRAPHIC] [TIFF OMITTED] 73941.046
    
    [GRAPHIC] [TIFF OMITTED] 73941.047
    
    [GRAPHIC] [TIFF OMITTED] 73941.048
    
    [GRAPHIC] [TIFF OMITTED] 73941.049
    
    [GRAPHIC] [TIFF OMITTED] 73941.050
    
    [GRAPHIC] [TIFF OMITTED] 73941.051
    
    [GRAPHIC] [TIFF OMITTED] 73941.052
    
    [GRAPHIC] [TIFF OMITTED] 73941.053
    
    [GRAPHIC] [TIFF OMITTED] 73941.054
    
    [GRAPHIC] [TIFF OMITTED] 73941.055
    
    [GRAPHIC] [TIFF OMITTED] 73941.056
    
    [GRAPHIC] [TIFF OMITTED] 73941.057
    
    [GRAPHIC] [TIFF OMITTED] 73941.058
    
    [GRAPHIC] [TIFF OMITTED] 73941.059
    
    Mr. Gowdy. Thank you, Dr. Groves.
    Dr. Biggs.

                   STATEMENT OF ANDREW BIGGS

    Mr. Biggs. Chairman Gowdy, Ranking Member Davis and members 
of the subcommittee, thank you for the opportunity to testify 
today with regard to the American Community Survey and, in 
particular, the legal requirement that Americans participate in 
the ACS.
    This issue involves important questions of both individual 
privacy and lawmakers' need for accurate data upon which to 
make important policy decisions. In the United States, we have 
sought to achieve an appropriate balance between these two 
needs. It is my opinion that mandatory participation in the 
ACS, coupled with legal protections for privacy of ACS 
respondents, maintains that balance in a reasonable way.
    The American Community Survey replaced the census long form 
which previously had gathered detailed information on a subset 
of the U.S. population. Roughly one-in-six census respondents 
were required to fill out the long form in addition to the 
standard census questionnaire.
    Researchers have pointed out technical pros and cons of the 
ACS versus the census long form. The annual sample size of the 
ACS is smaller than the census long form but the ACS is 
produced every year whereas the long form was generated only 
every 10 years. For that reason, the ACS allows for better real 
time analysis and better tracking of trends from year to year. 
These abilities clearly would be of interest to policymakers, 
Congress and the administration.
    The ACS and the long form are similar in that participation 
in both was mandated by law. Like for the long form, mandatory 
participation in the ACS is controversial and raises legitimate 
privacy concerns of which policymakers should remain cognizant. 
However, for several reasons, I believe that mandatory 
participation in the ACS remains a reasonable policy.
    First, the greater detailed information captured by the ACS 
has allowed the standard census questionnaire to become less 
detailed. For the typical American, the census process may 
become less intrusive over time.
    Second, the same law that mandates individual participation 
in the ACS also makes it illegal for the Census Bureau to 
release data in such a way that an individual's privacy might 
be violated. Any census employee who violates the privacy of 
census data faces significant jail time and large monetary 
fines. I am not personally aware of any instance in which ACS 
respondents, or for that matter, respondents to any census 
survey have had their privacy violated in this way.
    Third, and most importantly, without good data, 
policymakers are essentially flying blind, lacking solid 
knowledge of the Americans they are seeking to assist. We 
already suffer too much from what might be referred to as 
policymaking by anecdote. Where lawmakers seek to pass 
legislation before significantly examining the severity or 
sometimes even the existence of a perceived problem, reducing 
the quantity and quality of data available to policymakers, 
analysts and researchers threatens to exacerbate this problem.
    Moreover, it is likely that with voluntary participation, 
data will fall short most for individuals and households on 
whom government policy is most focused, including the poor, the 
less educated and those with poorer language skills. In my own 
research, I have found the ACS filled gaps in existing data 
sets and allowed for analysis that would have been difficult or 
impossible to conduct in its absence.
    For instance, I am currently using the ACS in ongoing 
research on public sector compensation, some of which has been 
presented in hearings before the full Oversight Committee. For 
much of that research, we use the Census Bureau's Current 
Population Survey. However, the ACS contains more detailed 
information that has allowed us to better control for the 
different skills of public and private sector employees, as 
well as much more detailed geographic location that allows us 
to look at where certain employees are located.
    Setting public sector compensation at appropriate levels 
impacts the quality of the government work force at the 
Federal, State and local levels and can have fiscal 
repercussions potentially worth hundreds of billions of dollars 
per year. Without good data, though, this kind of analysis is 
extremely difficult to undertake.
    Those who wish to make participation in the ACS voluntary 
raise important points. We should not allow our concern for 
individuals' privacy to fade even if we judge that mandatory 
participation is the best policy course. In the United States, 
the government exists to serve the people, not vice versa. 
Nevertheless, I believe that government can best serve the 
American people by continuing to gather high quality survey 
data.
    Thank you very much.
    [The prepared statement of Mr. Biggs follows:]
    [GRAPHIC] [TIFF OMITTED] 73941.060
    
    [GRAPHIC] [TIFF OMITTED] 73941.061
    
    Mr. Gowdy. Thank you, Dr. Biggs.
    Dr. Yun.

                   STATEMENT OF LAWRENCE YUN

    Mr. Yun. Chairman Gowdy, Ranking Member Davis and members 
of the subcommittee, thank you for inviting me to testify today 
and offer a realtor perspective on the American Community 
Survey.
    I am here to testify on behalf of approximately 1 million 
realtor members who are involved in residential and commercial 
real estate. I would like to discuss how NAR uses the ACS data.
    ACS provides an important input into NAR's estimation of 
existing home sales as delineated in the appendix of this 
testimony. NAR's monthly sales estimate is based on information 
from a comprehensive sample of multiple listing services around 
the country. However, NAR does not obtain information on every 
single sales transaction, for example, for sale by owner sales 
of which we would not be able to capture.
    Rather, NAR has the data for a representative sample of 
home sales on a monthly basis and then it is grossed up to 
obtain an estimate for total national existing home sales each 
month. The information from ACS provides the basis for this 
gross up. Based on the information in yearly ACS, we are able 
to obtain a benchmark level of sales that is an estimate or 
level of total home sales in a given year. We then use the 
sample data from the multiple listing service to estimate the 
total monthly sales based on this benchmark.
    Without the availability of ACS, we probably would not have 
an accurate measure of the existing home sales market. It is 
well known that home sales are one of the important drivers of 
the economy. Timely information on an important part of the 
economy would no longer be available. This combination of 
public and private data provides information on a major part of 
our economy, information that is of interest to decisionmakers, 
the homeowners and a variety of stakeholders.
    Another use of ACS is the computing of the Housing 
Affordability Index at the local level. NAR publishes a closely 
watched Affordability Index which is based on mortgage rates, 
home prices and local household income. We rely on ACS to 
provide the local income measurements. One of the popular 
reports that we provide for our realtor members is the Local 
Housing Market Report. Included in the report are sales, price 
and housing start trends. We also include information on 
population shifts and income trends and the data sets that come 
from the ACS.
    Our realtor members from faster growing States such as 
Arizona, Utah, Texas, Florida, North Carolina and my home State 
of South Carolina are particularly delighted to hear about the 
changing population shifts in their States' favor, recognizing 
that my observation in these conversations are just anecdotal.
    The major value of ACS is that it is based on random, 
statistically accurate samples permitting research analysis at 
the national, State and local levels. The key word is random. A 
significant, non-response error could be introduced if the 
participation in the survey were optional. Moving to a 
voluntary response to ACS would no doubt reduce response rates, 
particularly among minority households, low-income households 
and from rural communities.
    The accuracy and comprehensiveness of the survey is 
extremely important. Conclusions from a non-random survey could 
be incorrect and misleading. For these reasons, it is important 
that households selected for the survey be counted in the data 
base. The option of not answering the survey could bias and 
render meaningless conclusions based on the data base.
    I thank you for the opportunity to present our comments on 
the American Community Survey. In concluding, data integrity is 
important and I hope the American Community Survey can continue 
to obtain the necessary response rates needed to assure the 
development of accurate and meaningful conclusions.
    [The prepared statement of Mr. Yun follows:]
    [GRAPHIC] [TIFF OMITTED] 73941.062
    
    [GRAPHIC] [TIFF OMITTED] 73941.063
    
    [GRAPHIC] [TIFF OMITTED] 73941.064
    
    [GRAPHIC] [TIFF OMITTED] 73941.065
    
    [GRAPHIC] [TIFF OMITTED] 73941.066
    
    [GRAPHIC] [TIFF OMITTED] 73941.067
    
    [GRAPHIC] [TIFF OMITTED] 73941.068
    
    [GRAPHIC] [TIFF OMITTED] 73941.069
    
    [GRAPHIC] [TIFF OMITTED] 73941.070
    
    [GRAPHIC] [TIFF OMITTED] 73941.071
    
    [GRAPHIC] [TIFF OMITTED] 73941.072
    
    [GRAPHIC] [TIFF OMITTED] 73941.073
    
    [GRAPHIC] [TIFF OMITTED] 73941.074
    
    [GRAPHIC] [TIFF OMITTED] 73941.075
    
    [GRAPHIC] [TIFF OMITTED] 73941.076
    
    [GRAPHIC] [TIFF OMITTED] 73941.077
    
    [GRAPHIC] [TIFF OMITTED] 73941.078
    
    [GRAPHIC] [TIFF OMITTED] 73941.079
    
    [GRAPHIC] [TIFF OMITTED] 73941.080
    
    [GRAPHIC] [TIFF OMITTED] 73941.081
    
    [GRAPHIC] [TIFF OMITTED] 73941.082
    
    [GRAPHIC] [TIFF OMITTED] 73941.083
    
    [GRAPHIC] [TIFF OMITTED] 73941.084
    
    [GRAPHIC] [TIFF OMITTED] 73941.085
    
    [GRAPHIC] [TIFF OMITTED] 73941.086
    
    [GRAPHIC] [TIFF OMITTED] 73941.087
    
    [GRAPHIC] [TIFF OMITTED] 73941.088
    
    [GRAPHIC] [TIFF OMITTED] 73941.089
    
    [GRAPHIC] [TIFF OMITTED] 73941.090
    
    [GRAPHIC] [TIFF OMITTED] 73941.091
    
    [GRAPHIC] [TIFF OMITTED] 73941.092
    
    [GRAPHIC] [TIFF OMITTED] 73941.093
    
    [GRAPHIC] [TIFF OMITTED] 73941.094
    
    [GRAPHIC] [TIFF OMITTED] 73941.095
    
    [GRAPHIC] [TIFF OMITTED] 73941.096
    
    [GRAPHIC] [TIFF OMITTED] 73941.097
    
    [GRAPHIC] [TIFF OMITTED] 73941.098
    
    [GRAPHIC] [TIFF OMITTED] 73941.099
    
    [GRAPHIC] [TIFF OMITTED] 73941.100
    
    Mr. Gowdy. Thank you, Dr. Yun. It is good to have someone 
from South Carolina here.
    Mr. Jankowski.

                 STATEMENT OF PATRICK JANKOWSKI

    Mr. Jankowski. I want to start by thanking you Chairman 
Gowdy and Ranking Member Davis for inviting me here to talk 
about the American Community Survey.
    My name is Patrick Jankowski and I am the vice president of 
research at the Greater Houston Partnership. We are an economic 
development organization.
    One of the things that we do at the Partnership is we try 
to grow the region's economy. We try to grow jobs, try to 
expand the tax base, and try to bring investment to the region. 
Basically, we are trying to build prosperity in the region. 
This is a job I have been doing for about 30 years. I started 
at a college in 1981 doing this.
    How do you recruit businesses to a region that has changed 
so much over the last 30 years? When I first got started, we 
would have a company call us up and want to know do you have a 
piece of real estate and is it well served. That was all they 
wanted to know, real estate infrastructure. That was in the old 
economy, that was in the industrial age. Now we are in the 
information age we're in the global economy.
    When we work with companies and companies come to the 
region, they want to know something about real estate and know 
something about infrastructure but one of the most key issues 
they are asking about is the work force and the demographics of 
the region they work in and that they are looking at putting it 
in.
    It is the nature of the questions they ask. We will be 
working with a Japanese firm. The Japanese firm will be looking 
at coming to Houston and they want to know what is the size of 
your Asian community, what is the size of your Japanese 
community. They want to know because they need to make sure 
that their ex-pat workers they assign to come to Houston are 
going to feel comfortable working there.
    We will be working with an engineering firm and the 
engineering firm will want to know, obviously, how many 
engineers do you have and how many technicians do you have in 
the region. They want to know that so if they relocate to 
Houston, they open up in Houston, they are bringing jobs to 
Houston, they will be able to meet their staffing needs.
    We work with office centers and call centers. They ask us 
about commute times. One of the reasons is they want to know is 
it going to be difficult for their employees to get to work. 
They want to know if it is going to create staffing problems.
    These are real life examples. We have 100 Japanese firms in 
Houston. We have been able to recruit because we have this sort 
of data. With engineering firms specifically, we have Vestas 
Wind Energy, a Scandinavian company, which came to Houston to 
do development and R&D work because we were able to provide 
them with data about engineers. Just about any company that 
looks at Houston wants to know about commute times.
    It is so important that we have this good data, the data we 
get from the ACS. It is also so important just because of the 
nature of the changes which have been occurring in the economy 
and which have been occurring in the population over the last 
10 years. It is so important that we get the ACS data on a 
regular basis.
    Houston for example, added 1.2 million people in the last 
decade. Of that, 745,000 of those are Hispanic. If we didn't 
have the ACS data, we wouldn't see these changes which are 
going on in our population. Consider that there were five 
metropolitan areas that added over 1 million people between the 
censuses. There were another 6 that added half a million and 
another 50 that added over 100,000. There are 51 metropolitan 
areas that lost population between the census. If we didn't 
have the ACS data, we wouldn't be able to see these changes 
which are going on.
    Houston has been fairly successful. We actually had a 
pretty good year last year. We actually were able to recruit 
about 34 companies to the region or convince them not to leave 
the region. The ACS data is the sole thing which kept them 
there. We like to think we have a good business climate, but we 
were able to provide them with the data so they can understand 
the population, they can understand the work force and be 
comfortable in making a decision to invest in the region, to 
create jobs in the region, and to grow our tax base.
    I am not unique. I like to think I am unique but I am not 
unique. There are at least 5,000 other organizations like mine 
across the United States in small cities, counties and States 
that are trying to recruit businesses to their region. They 
rely very heavily on ACS data when they are trying to make 
their pitches to convince companies to relocate to their 
region.
    If we make the ACS voluntary, as my fellow panelists have 
talked about, the quality of the data is going to go down. If 
the quality of the data goes down, we are not giving the 
business community the sort of good information they need to 
make these business decisions. That is why I like to say making 
the ACS voluntary is a bad decision. We need to continue to 
give the business community good information so they can make 
good business decisions to help grow our tax bases, grow jobs 
and increase investment.
    Once again, thank you for allowing me to speak and I am 
ready to answer questions.
    [The prepared statement of Mr. Jankowski follows:]
    [GRAPHIC] [TIFF OMITTED] 73941.101
    
    [GRAPHIC] [TIFF OMITTED] 73941.102
    
    [GRAPHIC] [TIFF OMITTED] 73941.103
    
    Mr. Gowdy. Thank you, Mr. Jankowski.
    I will now recognize myself for 5 minutes.
    I want to be extremely clear at the outset. I don't doubt 
for a second the helpfulness of the information. I don't doubt 
for a second the importance of the information. What I am 
trying to determine is whether or not it is important enough to 
send someone to jail who doesn't answer it.
    Let me ask you, Mr. Biggs, do you think it is important to 
register to vote?
    Mr. Biggs. Do I think it is important? Voting is voluntary.
    Mr. Gowdy. That is not my question. My question was, is it 
helpful and important to vote?
    Mr. Biggs. Sure.
    Mr. Gowdy. In fact, one could argue that is the ultimate 
national survey, right?
    Mr. Biggs. Correct.
    Mr. Gowdy. If you want to take a mood on how people feel 
and what they are thinking, go check the election results. What 
is the penalty for not registering?
    Mr. Biggs. In our country, nothing.
    Mr. Gowdy. What is the penalty for not voting?
    Mr. Biggs. Nothing.
    Mr. Gowdy. You can understand how vexing it would be to 
some of us when the census was designed and calculated so you 
can apportion the different congressional seats. That is why we 
have a census. I don't think anyone is going to argue that the 
founders put that in the Constitution so we could have more 
demographic information for realtors. It is to apportion the 
congressional seats. That is the reason we have a census, yet 
we don't punish people for not registering to vote, we don't 
punish people for not voting and no one is advocating that we 
do. We do punish people who don't respond to portions of this 
form that have nothing to do with that right.
    I want to walk through not the helpfulness of it. I don't 
doubt that. I am not even doubting the importance of it. I want 
to ask about the constitutional grounding of being able to ask 
this. Director, I want to start with you and ask what level of 
scrutiny you think we should apply? I have heard the words 
compelling interest and I have heard important interest. Those 
are two different levels of constitutional scrutiny. Would you 
say that the government has a compelling interest in this 
information or just an interest in this information?
    Mr. Groves. If you go to the words in the Constitution, 
Article I, Section 2, it clearly gives Congress the 
responsibility to direct how the census is done.
    Mr. Gowdy. Agreed.
    Mr. Groves. Then in order to understand what the intent 
was, I think past Congresses have looked at the first Census 
Act and there it is absolutely clear, I think most historians 
read it that the intent was a full enumeration of the 
population in order that the reapportionment was equitably and 
fairly done and the mandatory nature is specified from the get 
go.
    Mr. Gowdy. I don't want to cut you off but I only have 2 
minutes now and I need to go through the form with you to ask 
you whether or not the governmental interest is important or 
compelling because the courts that look at this will have a 
different analysis if you say it is compelling versus if you 
say it is important.
    The first several questions, I don't think anyone 
challenges you have to know the age so you can apportion voting 
age population. You can't stuff a district with only people 
under the age of 18, so you have to know the age, you have to 
know the gender and you have to know the race. I am fine with 
compelling people to answer that.
    Whether or not someone is forgetful, do you agree with me 
that the First Amendment, while it protects your right to 
speak, also protects your right not to speak?
    Mr. Groves. With all due respect, I am not sure whether it 
matters whether I agree but what the intent of Congresses has 
been over the decades. Congresses have specified additional 
information and then the courts have, in discussions not unlike 
this, asked the question, is it right that the government 
compel. Those cases seem clear that the intent of those 
Congresses was upheld by the courts.
    Mr. Gowdy. I think those cases dealt with the Fourth 
Amendment and not the First Amendment which is why I asked you 
specifically about the First Amendment. Those were privacy 
cases; those weren't speech cases.
    Mr. Groves. I am not an attorney.
    Mr. Gowdy. I am not much of one either, but my reading of 
it is those were Fourth Amendment and not First Amendment 
cases, and I am almost out of time and perhaps we will have a 
second panel. Again, no one has to convince me it is helpful. 
Before all the realtors email me and call me from back home, 
nobody has to convince me it is important. Nobody has to 
convince me it is helpful.
    You have to convince me that it is important and helpful 
enough to send a person to jail who wants to exercise their 
right not to answer it.
    With that, I would recognize the gentleman from Illinois.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I think maybe we might have to have a second round because 
you have generated some thoughts even in my mind relative to 
the whole question of congressional intent. It seems to me I 
think the intent was to get as much information as was 
considered useful at the time. I agree there are changes that 
have been occurring. As those changes have taken place, we 
readjust and readjust our thinking in relationship to what is 
needed.
    I think there are even bodies of knowledge now that did not 
exist in 1790. So they would not have thought necessarily of 
the usefulness of some things. I guess trying to form this more 
perfect Union, I guess they knew it wasn't perfect and still 
isn't, but it is in formation. Every time we learn something 
new and readjust, then I think we are moving toward the 
perfection that we hope to have, even though I don't think we 
will ever get there because if we ever got there, then we would 
have to stop.
    As I was thinking about the issue, my questions become even 
if we find ways to save money in one way, and I think everyone 
associated with government or thinking about government are 
thinking how do we get the most mileage out of what we are 
spending? Oftentimes, I am reminded of an individual who lived 
back before some of this was written, a guy named Frederick 
Douglass. He always said there was one thing he knew if he 
didn't know anything else, and that is he knew that in this 
world, we may not get everything that we pay for, but we most 
certainly must pay and will pay for everything we get. If we 
don't pay one way, then we will pay another way.
    If there is some information that is needed to make a 
certain kind of decision and we don't have that data, or if the 
data we have is not as accurate as perhaps it could have been, 
maybe we make an error and the error may outweigh what would 
have been the cost of another level of accuracy. Do either one 
of you think that is something we ought to be thinking about as 
we think of streamlining and reducing and trying to spend the 
least amount of money that we possibly can with the greatest 
level of effectiveness? Mr. Director, let me begin with you.
    Mr. Groves. The question of the mandatory nature of ACS is 
related to your points through an indirect effect of making the 
ACS a voluntary survey. If it became voluntary, as the past 
research showed, the very small area uses that these gentlemen 
have mentioned and other people around the country rely on ACS 
for, those uses are threatened mainly because of the production 
of very unstable estimates at the low level.
    What happens with unstable estimates is that schools will 
be built in neighborhoods where there aren't enough kids, 
retail stores will be built that won't fulfill their sales 
projections, roads will be built where cars won't need them. 
There are costs to the quality impacts and the instability of 
estimates at the small area. In thinking through these 
tradeoffs, I think it is critical to talk also about the cost 
side of change.
    Mr. Gowdy. I thank the gentleman from Illinois.
    Mr. Jankowski, are there any questions that can't be asked?
    Mr. Jankowski. I haven't gone through the whole survey to 
look at which questions can't be asked.
    Mr. Gowdy. No, I mean are there any questions in general 
that can't be asked? What is off limits?
    Mr. Jankowski. You mean philosophically?
    Mr. Gowdy. Not even philosophically. If the standard we are 
going to use is what is helpful and what is important, can you 
ask the people at that residence whether they have committed 
any crimes in the last 12 months because heavens knows, we need 
to apportion law enforcement services?
    Mr. Jankowski. I think there is something in the 
Constitution about self incrimination.
    Mr. Gowdy. There is. There is the Fifth Amendment that 
comes down from the First Amendment which says you don't have 
to talk.
    Mr. Jankowski. Yes. So in that case, that sort of question 
would be off limits.
    Mr. Gowdy. What about whether or not someone takes any 
pharmaceuticals and to list the drugs they take by name so EMS 
can know when they respond whether or not there are any counter 
indications in terms of how they treat someone in case of an 
emergency? Can you ask what drugs are being consumed there?
    Mr. Jankowski. In a census form?
    Mr. Gowdy. Sure.
    Mr. Jankowski. I don't see the practical application of 
something like that.
    Mr. Gowdy. How about whether or not the person there has 
trouble concentrating?
    Mr. Jankowski. That, I can see because you need to be able 
to deliver services by geographic area.
    Mr. Gowdy. What service? What service would be impacted by 
lack of concentration that wouldn't be impacted by what kind of 
pharmaceuticals you are taking?
    Mr. Jankowski. Like nursing homes, day care for the 
elderly, things of that nature, services that you would 
provide, social services to provide people who are having 
difficulty taking care of their elderly relatives.
    Mr. Gowdy. I have heard reliable used a lot. Is self 
diagnosis the most reliable way to get that information?
    Mr. Jankowski. No, it is not. I don't think it is an issue 
of self diagnosis. I think this is an issue of someone who 
probably has already been diagnosed in their household by their 
doctor and they are just confirming on the form that it has 
already been diagnosed by a medical professional.
    Mr. Gowdy. Can you ask them what kind of magazines they 
read, what kind of TV shows they watch?
    Mr. Jankowski. I think Nielsen does that.
    Mr. Gowdy. That is my point. There are a lot of other 
people who ask these same questions. Is the mortgage 
information available from other sources?
    Mr. Jankowski. You probably need to defer that one to my 
colleague to the right. That is an area that I am not very well 
based on, mortgage information.
    Mr. Gowdy. Dr. Groves, is any of this information available 
from other sources?
    Mr. Groves. Some of the questions are asked in other 
surveys done both by other Federal agencies and the private 
sector, but what is unique about ACS is that the questions are 
asked of the same individual. That allows us to say not only 
what is the prevalence of disability in the country but what 
portion of the disabled are veterans. Since we ask both those 
questions, we can target the use of the information in a much 
more helpful way for small area decisions that are being made. 
That is the strength.
    Mr. Gowdy. The annual payment for fire, hazard and flood 
insurance, the amount, is that information available from other 
sources?
    Mr. Groves. Yes, but once again, that single item in 
conjunction with other items allow us to calculate and to give 
to the Housing and Urban Development Department estimated 
living costs by housing type and that is critical in Section 8 
administration.
    Mr. Gowdy. I am going to ask the question again. What 
standard is the standard we should be using?
    Mr. Groves. I think it is very simple. It really is very 
simple.
    Mr. Gowdy. What? Give me a simple answer.
    Mr. Groves. We have attempted to go through the questions 
on the ACS and ask of each one, is there a legal mandate to 
collect these. I believe we can send this to you at any 
moment's notice, the details, the statutes that require the 
collection of that information either by the American Community 
Survey itself or by the Census Bureau in service of other 
Federal Government agencies. Then there are all the business 
uses that are not mandated statutorily, but are useful. That 
distinction I am with you on. I believe that is an appropriate 
distinction for Congress to make.
    Mr. Gowdy. What questions can't be asked?
    Mr. Groves. What questions?
    Mr. Gowdy. Cannot be asked?
    Mr. Groves. In a similar meaning of the term that you used?
    Mr. Gowdy. Yes. Can you ask about medicines because EMS 
does need to know when treating someone at the house?
    Mr. Groves. I believe that would not meet the standards of 
the American Community Survey, so our question is, where is the 
statute that requires the collection of information for the use 
for the common good if we find that is the threshold we are 
looking for in the American Community Survey?
    Mr. Gowdy. My time has expired.
    The gentleman from Illinois, Mr. Davis.
    Mr. Davis. Voluntary versus mandatory ACS studies in 2003 
and 2004, the findings demonstrated an over 20 percent decrease 
in participation when the answers were voluntary. This seemed 
to me to be a large decrease for a limited population and the 
Census Bureau concluded that moving to a voluntary ACS would 
compromise the quality of the data and increase the cost of 
administering the ACS.
    In addition to that, it seems to me if you are making 
decisions about something and you have 20 percent less 
information or less accurate information, would that drive up 
the cost of not only getting the data that you need, but would 
it also compromise the likelihood of the validity or the 
highest level of validity of decisionmaking that then would 
occur?
    Mr. Groves. It is clear to me that the credibility of the 
ACS statistics used by people throughout the country is 
dependent on the rate of participation we get. It is also clear 
from the 2003 studies that participation rate would go down 
with a voluntary survey.
    Our estimates are that roughly 600,000 houses that are 
responding now relative to about the 2 million that respond 
each year would be threatened under this. It is important, I 
think, to understand why. The first receipt of an American 
Community Survey is through the mail. All of us sort through a 
mail making a decision about whether to open the envelope or 
not. Is it important enough to gain our attention?
    The American Community Survey has a message on the envelope 
that notes the legal basis and the mandatory nature. That has 
been shown through the research to be an effective tool merely 
to open the envelope. Once the vast majority of people do that, 
they then end up eventually completing the survey.
    It is important to talk about the tradeoff. What would 
happen if we made ACS voluntary? Imagine that world and we are 
blessed that an earlier edition of this committee urged us to 
do that research. We now have the research findings and the 
research findings suggest that some of the key uses of ACS are 
gutted by the voluntary nature and we have to talk about that.
    Mr. Davis. I know the chairman was concerned about the 
issue of individuals being penalized for not complying or not 
answering the questions. Individuals may end up potentially 
becoming incarcerated. Certainly given the fact that we 
incarcerate more people than anybody else in the world, I 
wouldn't want to see anybody incarcerated because they refused 
to answer some census information that was inquired.
    Do we have much record of people having been prosecuted for 
refusing to answer questions on census forms?
    Mr. Groves. I have been in this job since 2009 and I asked 
the same questions about how we implemented the mandatory 
nature. I can't find an example of prosecution attempts on ACS. 
When I asked why, why is it mandatory and why don't we 
prosecute, the answer is that we found over time that the note 
that this is mandatory and the ability of our interviewers to 
explain why these data are so important are much more effective 
than any prosecution could be. No one has been fined, is what I 
am told, because of non-compliance with ACS.
    I remind us that the rate of participation is about 98 
percent of the sample. This is extraordinarily high. There is 
no other survey in the United States that reaches this level of 
participation.
    Mr. Davis. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Illinois.
    The Chair will now recognize the gentleman from California, 
the chairman of the full committee, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Jankowski, a short answer hopefully. The information 
for the census is useful and you would like to have it, right?
    Mr. Jankowski. Yes, sir.
    Mr. Issa. It is valuable and you would like to have it?
    Mr. Jankowski. Yes, sir.
    Mr. Issa. Mr. Yun, the same would be true, the information 
is useful and you would like to have it? It is valuable and you 
would like to have it?
    Mr. Yun. Yes, if it is a random sample. If it is not a 
random sample, then the results would not be that meaningful.
    Mr. Issa. You want good data, it is valuable?
    Mr. Yun. Yes.
    Mr. Issa. Dr. Biggs, you are maybe a little less interested 
in it, but would you agree that this is valuable information?
    Mr. Biggs. I have no financial interest, but yes, it is 
valuable information.
    Mr. Issa. You know that the private sector, associations 
and true private sector, they want to have it, they use it and 
it is valuable to them?
    Mr. Biggs. That is correct.
    Mr. Issa. They get it for free, right?
    Mr. Biggs. Yes, they do.
    Mr. Issa. Director, your turn. You are not selling this. It 
is valuable. Statutorily, you are not allowed to sell it, is 
that correct?
    Mr. Groves. I am not sure.
    Mr. Issa. Let me get to the question behind the question. 
If ultimately one of your great defenses is that it costs more 
to do it another way, then the first question is, you can 
offset that by having the right to sell this very valuable 
information, so cost is a false facade, it is a canard, right? 
Ultimately, cost is something you are saying but it is not 
something you particularly care about as long as the revenue 
necessary either given to you by the taxpayers or provided to 
be collected for this valuable information, you don't have a 
problem with the raised cost then, do you?
    Mark McCormick has passed away now, but he was a business 
write and he described what a problem is. Director, do you know 
what a problem is?
    Mr. Groves. No.
    Mr. Issa. It is something money won't solve. My first 
question to you, and the most important question for me in this 
hearing is, could money solve this problem statistically?
    Mr. Groves. That is a great question, first of all. It is a 
question I think about a lot. I can say that if there were an 
increase in the budget.
    Mr. Issa. In the budget for this particular line item, let 
us not go too far here today.
    Mr. Groves. Then it is unambiguous that we could restore 
the size of the data set, as it were, that produces the 
estimates from ACS. Then the critical question as these 
gentlemen have noted is would that reestablished size produce 
the same estimates. We have done some simulation on this and 
sometimes it works, sometimes it doesn't work. The jury is 
still out on the answer.
    Mr. Issa. Let us go to a more studied area. Director, you 
have written fairly extensively that you view enumeration could 
be done by estimation, that in fact the mandate on the 
Constitution, which we do argue about here in Congress, that 
says you will count could in fact be extrapolated for greater 
accuracy. Literally, the convincing argument that has not 
carried the day is that minorities are under-represented in the 
census because, in fact, they don't answer, they have these 
other reasons that they are not counted, and therefore, an 
extrapolation could increase the accuracy. You are well 
familiar with the issue and you and I have even talked about it 
in the past, right?
    Mr. Groves. Yes. I don't believe I have ever written a 
single word on this but I understand what you are saying, yes.
    Mr. Issa. That whole point is that we could potentially 
change outcomes using further analysis. In this case where 
there is no constitutional mandate and thus, no compelling 
reason under the Constitution at least to mandate people answer 
against their First, Fourth, Fifth and dammit, I just have a 
right to liberty set of constitutional rights because there is 
sort of that life, liberty and pursuit of happiness. It doesn't 
necessarily fit in the 10 but it is clearly there.
    Back to the basic question, one, given enough money, you 
can overcome this or at least given enough money, you can find 
out if you can overcome it and to what accuracy, right?
    Mr. Groves. It would require a research program to nail it.
    Mr. Issa. Let us do a what-if here. If you in fact did a 
blind study or double blind study or triple blind study, you 
guys are much better at the terms for it, and you did both, and 
I say triple--if I can ask for an additional minute, Mr. 
Chairman.
    Mr. Gowdy. Without objection.
    Mr. Issa. Thank you.
    Where you had the straight voluntary, you had sort of the 
first four questions voluntary, and then follow up to try to 
encourage people to participate even if in fact they were 
reticent to do so, but ultimately that would be compared 
against today the you are going to jail if you don't answer 
this type of threat, if you did that, you would know more than 
you know today, isn't that correct, Director?
    Mr. Groves. That is correct.
    Mr. Issa. Once you do that, you would know whether or not 
you could receive, for the benefit of these people to your left 
because they want this information in many cases. It is 
valuable information and they think you are a better source of 
it for free than the people they pay millions of dollars to get 
it, right?
    Mr. Groves. That is right. Canada just did this.
    Mr. Issa. Thank God it is not Sweden. I love it when it is 
Canada instead of Sweden.
    Mr. Groves. They are still grappling with the results as I 
understand it, so it didn't work out according to expectations.
    Mr. Issa. In their case, they did these blind tests or did 
they change systems?
    Mr. Groves. They switched their so-called long form to 
voluntary, mounted it as a survey after their census in 2011 
and there was a massive decline, an unexpectedly large decline.
    Mr. Issa. My time has expired. Mr. Chairman, are we going 
to have another round?
    Mr. Gowdy. Mr. Davis and I have had a second round. Mr. 
Chairman, you are welcome to also have a second round.
    Mr. Issa. Thank you. I will be briefer in my second round 
than my first.
    This is so important and there is so much question about 
whether or not the word mandate is necessary, and if so, to 
what questions. I think this is where, Mr. Jankowski, you were 
very good at answering some things and a little bit more 
deferring in others.
    At the end of the day, can't we all agree that not every 
question has a compelling Federal interest that mandates it 
while, Mr. Yun, there are things which do not have a compelling 
Federal interest but you sure as heck would like to get the 
information.
    Can we all agree that is sort of part of what the study is. 
It is not just about the absolute minimum, it is about nice to 
have information and in some cases, must have information and 
then it is a question of how you get it? Is that sort of where 
the two of you would be, you would like to have the information 
and you know some of it is needed, but some of it that we get, 
you really appreciate whether it is needed or not?
    Mr. Yun. That is correct.
    Mr. Issa. Mr. Biggs, in your case, you are sort of my 
libertarian friend for a moment, if we can ask for this 
information and people voluntarily give it and we can 
statistically make it accurate for the other side and if we 
recover the cost in some way that is beneficial to the taxpayer 
either because the additional information is valuable, enough 
for him to pay for it or her to pay for it, or we sell it, are 
you okay, Dr. Biggs, with that?
    Mr. Biggs. In general, yes. You can make the economic 
argument for government conducting what we call basic research 
and I think this would actually fit into the category of that, 
but in general, I would. I am pretty well a libertarian person.
    The number of programs and departments I think are 
unconstitutional would probably shock even you, but I think for 
somebody who is often accused of wanting to gut the government, 
I think the place to start is not through the eyes and ears of 
knowing what is going on out there.
    If you cut that source of information, all the other 
government programs become less efficient. Because they are 
less efficient, you are extracting more from people than you 
otherwise would have to. You are serving them less well than 
you otherwise would. That has a cost not just financially, but 
a cost to their freedom.
    I think the libertarian argument cuts both ways. I am all 
for cutting government. Is this the first thing we should cut? 
I don't really think so.
    Mr. Issa. Director, I am going to close with you. It looks 
like you have a great mandate here. You have a group of people 
who want to find a way to do this less onerously, you have a 
dais who is committed to making sure that information that is 
valuable to the taxpayers, directly and indirectly, is made 
available.
    You do have some pushback on the mandated. It appears as 
though you don't currently have the kind of parallel, both 
studies in Canada and in fact, doing your own work with these 
various levels potentially. I put those out as a person who 
only had to take the required stats to get a business degree. 
You certainly eclipse what my teachers had, let us put it that 
way.
    That is an invitation, I would say, for you to come to us 
with your proposals for how we get a win-win. Can we, in fact, 
have Dr. Biggs get what he wants which is that the onerous 
nature of mandate fades to zero potentially; Dr. Yun and Mr. 
Jankowski seem like they are fine with voluntary. They just 
want to make sure it is equally accurate.
    I am sitting on the dais saying, I don't want the taxpayers 
to have to get a big increase unless it is absolutely mandated. 
Can you come back to this committee in relatively short time 
with at least some draft ideas of how we could work together to 
get the win for the three people to your left and the win for 
Mr. Poe and the other people who believe that today, this 
mandate, in its current form, needs to go away completely? The 
committee certainly would like to find a win-win. Can you do 
that for us?
    Mr. Groves. I think this is the proper role for me and my 
colleagues to comment on the technical matters and for you to 
address these more philosophical matters of what should be 
mandated. I would be happy to do so.
    Mr. Issa. I thank you. I have never had a bad hearing with 
you or a bad meeting with you, so this doesn't surprise me.
    Mr. Chairman, Mr. Davis, and Mr. Clay who has joined us, I 
thank you for this hearing. I think it is a good first step. We 
obviously are the exclusive committee of jurisdiction for the 
census and we take it seriously.
    I thank the chairman and yield back.
    Mr. Gowdy. I thank the gentleman from California.
    The Chair would now recognize the gentleman from Missouri, 
Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    I thank all the witnesses for coming today. It is good to 
see Director Groves again. I appreciate the hard work that you 
and the Bureau did during the 2010 census. I believe it was one 
of the most accurate and complete we have ever done.
    I am, however, concerned that this is the first time that 
this committee in the 112th Congress is examining an issue 
related to the census. When I took over as Chair of this 
committee in 2007, I discovered that during the previous 7 
years, my friends on the other side of the aisle had held only 
two hearings about the 2010 census. Seven years into the 
planning, most of the decisions had been made. Many of them, 
unfortunately, had been poor decisions that would have created 
major problems and yielded poor results.
    Without any oversight from the then-majority, there was a 
great likelihood of failure. We took great care and made 
efforts in the following 4 years to rectify the problems. We 
did and we provided oversight. We held hearings and we 
investigated. We asked the GAO to provide us with numerous 
reports. Let me say that the GAO did an outstanding job. We 
engaged with the Bureau and we listened to an enormous number 
of stakeholders and we did it all transparently through more 
than 20 hearings.
    We have not had much follow-up from the 2010 census. 
Hopefully, we will begin that process, Mr. Chair.
    If this is about the American Community Survey, ACS, I am 
sure others will be able to give many details on how the ACS 
came to be and how it is of great benefit to us all. They will 
tell us how participation will decline significantly if the ACS 
were to be made voluntary. I would like to go on the record to 
say that I am opposed to making the ACS voluntary.
    I hope that the Majority realizes the importance of the 
census and I hope that they are as committed to an accurate and 
complete count as possible as I am.
    With that, Mr. Chairman, let me ask one question of the 
panel. I will start with Director Groves.
    Mr. Groves, there are some who suggest that the private 
sector should pay for census data collection. Could you address 
this idea and the possible ramifications of an effort like 
this?
    Mr. Groves. We haven't considered this seriously, so I can 
comment that it would be near unique in the world if the United 
States chose to do this. Other countries, I think, have taken 
the posture that this is a basic responsibility of the central 
government to monitor and keep track of how we are doing as an 
economy and a society and that in a democracy, the free and 
equitable distribution of this information is key to the notion 
of the society.
    I don't know what money would be made off this is we tried 
to sell it. It is clear that there are companies that use these 
data, combine them with other statistics and add value and sell 
these as part of their business model, so there is a bit of 
that, but I have no idea what would happen if the United States 
chose to do this and whether the results would be a desirable 
set or not.
    Mr. Clay. It is also clear that the business community 
relies on data to make business decisions on where they locate 
their businesses and basically how commerce flows in this 
country?
    Mr. Groves. It is crystal clear that successful American 
firms are using empirical data to make day to day decisions and 
that what products are stocked in a particular site of a 
particular national store is determined somewhat by our data. 
American business runs on these data and we would have to think 
this through.
    Mr. Clay. My time has expired, Mr. Chairman.
    Mr. Gowdy. The gentleman is recognized for some additional 
time.
    Mr. Clay. Thank you. Two minutes.
    Mr. Gowdy. An additional 2 minutes.
    Mr. Clay. Thank you very much.
    Does anyone else on the panel have any thoughts about the 
data collection and whether the private sector should pay for 
it? Dr. Yun.
    Mr. Yun. Like Dr. Biggs mentioned, there is certain basic 
information I think the government can provide rather than 
forcing upon the private sector to pay, that benefits the 
country as a whole. Let me relate one long story.
    I grew up in South Korea and was raised in South Carolina 
but my parents went through the Korean War and it could have 
been just as easy that we could have been following the other 
regime. The other regime did not collect data. I should say 
there is a tremendous amount of consensus among economists and 
researchers in America, even though there is disagreement here 
and there, I think that the level of agreement that is in 
America compared to other countries that are divided like North 
and South Korea because of the prevalence of the data, we can 
see it, we let the statistics speak for themselves.
    I think there is tremendous value in having the basic 
information. With the research, people can look through it and 
find the consensus as to what makes sense and what does not 
make sense.
    Mr. Clay. Thank you for that response.
    Mr. Jankowski, any comments?
    Mr. Jankowski. Just one comment. I can see the business 
community coming back and saying, this is something I am 
already paying taxes on. If I am already paying taxes for it, 
why am I subsidizing it a second time?
    Also, I think we need to understand who we are in the 
United States, we need to understand the forces that are 
shaping us and we need to understand the demographic shifts. I 
think it is so important to gather this information so we 
simply know what is going on in the country.
    Mr. Clay. Thank you so much, Mr. Chairman. I yield back.
    Mr. Issa. Mr. Chairman, before we close, could I have just 
a moment?
    Mr. Gowdy. Certainly, Mr. Chairman.
    Mr. Issa. I just want to follow up. Mr. Clay made two good 
points.
    Mr. Jankowski, you pay taxes, and Dr. Yun, you pay taxes, 
but you pay taxes for the National Parks. Do you think it is 
wrong to pay a fee to go in a National Park since we collect 
countless dollars in that?
    Mr. Yun. I believe on the National Parks, it is determined 
at the local or State level and I visit many parks, I pay my 
portion.
    Mr. Issa. Just so you understand, the Federal Government 
takes taxes to run the Park Service, we supplement that with 
fees that you pay entering. It appeared as though you said yes. 
I just want to make sure we understand. I came from the private 
sector. Just because taxes are paid doesn't mean those who use 
over and above that get a free ride. I hope neither one of you 
was actually saying that.
    Mr. Yun. I agree with you but I believe in the importance 
of the randomness of the data collection.
    Mr. Issa. That is the second point. Mr. Clay, you and I 
probably agree on this much more than we will ever disagree. 
You made a statement that you support specifically the mandate. 
Just as you were coming in, Director Groves had said that he 
wasn't sure because he doesn't have the full data about what 
the cost would be and whether or not he could get, if you will, 
through statistical sampling or some other secondary check, 
equal accuracy or near equal accuracy through a system that 
would not be mandated.
    He only knew that Canada had gone from mandated to not 
mandated and it didn't work out so well. Probably Canada 
supports your decision that we can't just go automatically to 
not mandated, but perhaps, Director Groves could repeat what he 
said about the possibility that we could get to a hybrid.
    Mr. Clay. Before that happens, if the gentleman would 
yield?
    Mr. Issa. Of course I would yield.
    Mr. Clay. The ACS, what we found over the last 5 or 6 
years, was beneficial. It really filled in some gaps between 
the decennial census and it helped us understand and get a 
clear picture about this country, about its growth, about what 
areas were growing, which ones were shrinking and I think that 
is beneficial.
    Mr. Issa. That is one of the areas of our greatest 
agreement, that this information is powerful and beneficial. I 
think every one of the witnesses all agreed. What we are trying 
to do is more nuance than that. That is why I said we are going 
to have a lot of agreement on the need to collect this data, at 
least most of it.
    We can all argue over specific questions, but Director 
Groves, could you just reiterate briefly, and I know you are 
going to answer in writing for the committee, how you get from 
what you don't know to what you might be able to know?
    Mr. Clay. Before he answers, would the gentleman yield?
    Mr. Issa. I would yield to the gentleman.
    Mr. Clay. Does that mean that the majority would support an 
increased appropriation for the census for 2020?
    Mr. Issa. That is why I wanted to follow up with my 
business side folks to make sure they understood that the 
source of funding, if there is an increase in cost for this 
valuable information, might in fact come in some way, at least 
sightly, from the users.
    Director Groves was very good to say that it wouldn't be 
completely free regardless. Director.
    Mr. Clay. Thank you.
    Mr. Groves. Just to get our facts on the table, we think 
that the voluntary nature is in the rough ballpark of about 
$68-$70 million a year. That is a key factor in your going 
forward. The critical scientific work that hasn't been done is 
even with that other money, would the characteristics of those 
not participating bias the statistics so that all of the uses 
we just heard about are indeed threatened? We don't have the 
right research to answer that.
    Mr. Issa. Thank you, Director. That is very helpful to us 
and for all of us to know what we do know and what we don't 
know. Thank you for the $60 million figure. Perhaps that makes 
my colleague on the other side of the aisle more optimistic 
that we can reach consensus.
    I yield back.
    Mr. Gowdy. I thank the gentleman from Missouri and the 
gentleman from California.
    On behalf of all of us, we want to thank our panelists for 
a very informative, lively discussion. Whenever we balance 
competing interests, especially when those interests are very 
important on both sides, it makes for an instructive, 
informative hearing.
    Thank you for your expertise your comity and how you have 
interacted with one another and with the Members.
    With that, we are adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
